           SUPERFUND ACTIVITIES IN THE
       ENVIRONMENT AND NATURAL RESOURCES
                     DIVISION
          FOR FISCAL YEARS 1998 AND 1999
                        EXECUTIVE SUMMARY

      On December 11, 1980, the Comprehensive Environmental Response,
Compensation and Liability Act of 1980 (known as CERCLA or Superfund)
was signed into law. CERCLA provides for liability, compensation, cleanup,
and emergency response for hazardous substances released into the
environment and uncontrolled and abandoned hazardous waste sites.
Executive Order 12580, issued January 23, 1987, gives the Attorney General
responsibility for the conduct and control of all CERCLA litigation, which is
conducted by the Environment and Natural Resources Division (ENRD). In
accordance with the legislation, the Environmental Protection Agency (EPA)
issues interagency agreements to the ENRD to reimburse it for costs
incurred in performing such litigation. The agreements also require the
ENRD to maintain a system that documents the cost of the litigation. To this
end the ENRD uses a cost distribution process designed and maintained by a
private contractor.

       In March 1998, the ENRD modified its case and time data system to a
direct entry process by staff. The system served as the basis to distribute
labor costs and indirect costs to cases. We reviewed the system to assess
the allocability of such costs to Superfund and non-Superfund cases during
FY 1998 and FY 1999. We reviewed other direct costs based on supporting
documentation for the costs and the applicable cases. In addition to this
audit, the Office of the Inspector General performed a separate audit of the
internal controls and computer security controls of the information systems
within the ENRD. We determined that the internal controls in place for the
case and time data entry system were adequate. Accordingly, we relied on
the results of that audit to accept the automated case and time data for
purposes of this review of the distribution of costs in FY 1998 and FY 1999.
Based on the results of the audits, in our judgment the ENRD provided an
equitable distribution of total labor costs, other direct costs, and indirect
costs to Superfund cases during FY 1998 and FY 1999.
                        TABLE OF CONTENTS
                                                                              Page


INTRODUCTION ...................................................................1

AUDIT RESULTS ...................................................................2
  SUPERFUND COSTS FOR FY 1998          AND   1999..................................2
APPENDIX I - OBJECTIVES AND SCOPE ................................. 12

APPENDIX II - CASES IN SAMPLE REVIEW ............................. 13

APPENDIX III – FY 1998 ACCOUNTING SCHEDULES &
SUMMARIES ...................................................................... 14

APPENDIX IV – FY 1999 ACCOUNTING SCHEDULES &
SUMMARIES ...................................................................... 22

APPENDIX V – ENRD COMMENTS ON THE AUDIT
RECOMMENDATIONS........................................................... 30

APPENDIX VI – ANALYSIS AND SUMMARY OF ACTIONS
NECESSARY TO CLOSE REPORT............................................ 31
                                 INTRODUCTION

       The Comprehensive Environmental Response, Compensation and
Liability Act of 1980 (known as CERCLA or Superfund) 1 provides for liability,
compensation, cleanup, and emergency response for: (1) hazardous
substances released into the environment, and (2) uncontrolled and
abandoned hazardous waste sites. Executive Order 12580, issued
January 23, 1987, provides that the Attorney General is responsible for the
conduct and control of all litigation arising under Superfund. The Order also
requires the Administrator of the Environmental Protection Agency (EPA) to
transfer from the Hazardous Substance Response Trust Fund resources to
support Superfund activities.

      In FY 1987, under the statutory authority of 31 U.S.C. 1535, the EPA
began transferring appropriated funds to the Department of Justice through
interagency agreements. These agreements authorized the Environment
and Natural Resources Division (ENRD) to be reimbursed for costs incurred
in performing Superfund activities. EPA authorized the ENRD
reimbursements of $29.6 million for FY 1998 and $30 million for FY 1999 in
accordance with EPA Interagency Agreements DW15937968-01-1 and
DW15937968-01-2, respectively.

       The initial agreements in FY 1987 also required accounting and
reporting of recoverable case-related costs. Accordingly, at that time the
ENRD instituted a system designed by Rubino & McGeehin, Chartered,
Certified Public Accountants and Consultants (contractor). The system was
designed to process financial data from Expenditure and Allotment (E&A)
Reports into: (1) Superfund direct costs by specific case, broken down
between direct labor costs and all other direct costs2; (2) non-Superfund
direct costs; and (3) allocable indirect costs. We reviewed this process and
a sample of transactions of other direct costs to assess the allocability of
such costs to Superfund and non-Superfund cases during FY 1998 and
FY 1999.




1
       Amended by the Superfund Amendments and Reauthorization Act of 1986.
2
         Other direct costs charged to individual cases include: personnel, special masters,
expert witnesses, interest penalties, travel, filing fees, transcription (court and deposition),
litigation support, research services, judicial subpoena, graphics, and noncapital equipment.
                           AUDIT RESULTS

       Superfund Costs For FY 1998 And 1999

       We reviewed financial activities and procedures used by
       the ENRD to document, compile, and allocate direct and
       indirect costs charged to Superfund cases. We found that
       adequate internal controls existed to ensure equitable
       distribution of costs incurred for Superfund cases from
       October 1, 1997 through September 30, 1999.

      We designed the audit to compare reported costs on the contractor
developed Accounting Schedules and Summaries for FY 1998 and FY 1999
(Appendix III and Appendix IV) to that recorded on Department of Justice
accounting records, and to review the cost distribution system used by the
ENRD to allocate incurred costs to Superfund and non-Superfund cases. To
accomplish this we performed the following steps:

   •   Compared total costs recorded as paid on the E&A Reports to the
       amounts reported as Total Amounts Paid on the year end Accounting
       Schedules and Summaries, and traced such costs to the reported cost
       distribution to Superfund cases.
   •   Reviewed the ENRD’s methodology for identifying Superfund cases on
       its Superfund case list by comparing a select number of cases against
       the ENRD case assignment criteria.
   •   Reviewed direct labor costs and indirect costs distributed to Superfund
       against the contractor developed methodology.
   •   Compared Other Direct Costs to source documents to validate their
       allocability.

       By performing these steps we wanted to assure ourselves that costs
distributed to Superfund and non-Superfund cases were based on the total
of actual costs for each fiscal year, that the distribution methodology used
and accepted in prior years remained viable, and that selected costs were
supported by documentation that evidenced their allocability to Superfund
and non-Superfund cases. This would permit us to determine if the ENRD
provided an equitable distribution of total labor, other direct costs, and
indirect costs to Superfund cases during FY 1998 and FY 1999. Following
are the results of our review against our audit steps.




                                     -2-
Reconciliation of Accounting Schedules and Summaries to E&A
Reports

      The E&A Reports for FY 1998 and 1999 provided the following amounts
paid for total the ENRD expenses:

                  ENRD Payments By Fiscal Year (in thousands)
       Description                          1998              1999
       Salaries                             $48,845            $51,011
       Benefits                                9,987            10,619
       Travel                                  2,966             2,929
       Freight                                    346              411
       Rent                                   10,103            10,981
       Printing                                   350              395
       Services                               10,723            10,372
       Supplies                                   845              765
       Equipment                                   778           1,717
       Total                                $84,943            $89,200
     Source: E&A Reports for FY Ending 09/30/98 and 09/30/99

      We compared these E&A amounts to those in Schedule 6,
Reconciliation of Total ENRD Expenses, of the Accounting Schedules and
Summaries for each fiscal year to ensure that the distribution of costs to
Superfund and non-Superfund cases was limited to total costs incurred. We
found that the Schedule 6 amounts reconciled to the E&A Reports. We then
reconciled these amounts to the distributions to Superfund on Schedule 5,
Superfund Costs by Object Classification, and Schedule 2, Superfund
Obligation and Payment Activity During FY 1998 (and FY 1999) By Fiscal
Year of Obligation. We also found that the amounts on these schedules
reconciled through Schedule 6 to the E&A Reports.

     Our review then focused on determining that the summary amounts
on Schedule 2 represented an equitable distribution of costs to Superfund.
The Superfund costs in Schedule 2 of the Accounting Schedules and
Summaries for FY 1998 and FY 1999 reported the following:




                                    -3-
                  Superfund Distributed Costs By Fiscal Year
            Cost Categories               1998                1999
     Labor                               $ 6,985,929        $ 7,161,567
     Other Direct Costs                    5,025,661          5,717,355
     Indirect Costs                       13,441,690         14,381,734
     Program Expenses                         140,420           225,171
                             3
     Unliquidated Obligations              4,368,504          3,018,594
     Totals                                     $29,962,204           $30,504,421
      Source:       Schedule 2 of Accounting Schedules and Summaries

      Our starting point for reviewing the distribution system was to be able
to identify and reconcile the ENRD cases as Superfund or non-Superfund.
This would enable us to extract only Superfund data from the ENRD data to
compare to the Accounting Schedules and Summaries.

Superfund Case Reconciliation

       ENRD litigates non-Superfund and Superfund cases, which have
unique identifying numbers in order to control the processing of cases. The
ENRD maintains electronic listings of all Superfund cases, which identified
4,661 cases in FY 1998 and 4,997 cases in FY 1999. We reviewed the
listings to establish how the ENRD identified Superfund cases, and if the
cases were identified in accordance with established ENRD criteria for case
identification. We requested the ENRD to provide the criteria used to
identify Superfund cases in each litigation section. Although the ENRD did
not have formal procedures to do so, the ENRD provided us with information
regarding how each section head identified Superfund cases. In our
judgment the ENRD would benefit by formalizing a policy that documents
how each section identifies a Superfund case.

       We randomly selected 20 cases in FY 1998 and 20 cases in FY 1999
(Appendix II) to test if the ENRD sections adhered to the procedures and
identified the cases properly. For our purposes we reviewed the cases
against the ENRD case data entering forms (point sheets) and case pleading
information4. The ENRD used the point sheets to record summary
information from the case. The information referred to laws, regulations, or

3
      Amounts are accounted for against Other Direct Costs, Indirect Costs, and Superfund
Program Expenses.

4
       If a case was dismissed, the file may not include a case pleading document but may
include a summary document indicating the type of case and reason for dismissal.



                                          -4-
other language that established the cases as either Superfund or non-
Superfund for tracking purposes. The case pleading documents were
contained in the case records and included the laws, regulations, or other
documents that supported the case being designated as a Superfund
litigation. We found that all 40 cases reviewed contained proper referencing
documentation on the point sheets. We also verified 9 of the 20 cases in
FY 1998 and 13 of the 20 cases in FY 1999 against the case pleading
documents, where used. Accordingly, in our judgment we could rely on the
ENRD furnished Superfund case lists for FY 1998 and FY 1999 to review
Superfund allocated costs from the Accounting Schedules and Summaries
and records supporting them.

Superfund Cost Distribution

      Since we assured ourselves that the ENRD’s case identification system
adequately listed Superfund cases, we next reviewed: (1) the system used
by the contractor to distribute direct labor and indirect costs, and (2) other
direct costs charged to Superfund. Following are the results of our review of
the cost categories.

Labor

      The contractor continued using the labor distribution system from prior
years, which we had reviewed and accepted in prior audits. The ENRD
provided the contractor with electronic files that included employee time
reporting information and biweekly salary information downloaded from the
National Finance Center, who processes biweekly salaries for the ENRD
employees. The contractor uses the information to calculate effective hourly
rates to apply to reported case hours by employee by month. The
contractor uses the following formula to distribute labor costs monthly.

Salary Starting Point:     Employee Monthly Salary5
Divided by:                Employee Reported Monthly Hours
Equals:                    Monthly Hourly Labor Rate
Multiplied Against:        Employee Reported Monthly Superfund and
                           Non-Superfund Case Hours
Results In:                Distributed Individual Monthly Labor Case Cost

    Prior to March 1998 each ENRD attorney and paralegal employee
manually documented on a time sheet the time expended on assigned cases.


5
      The ENRD provides the contractor with the effective annual salary during the paid
biweekly pay period. The contractor converts the salary data on a monthly basis.



                                          -5-
A data clerk then input this data to the ENRD electronic Case Management
System (CMS). In March 1998 the ENRD implemented an operational
change to the system, permitting employees to input their time distribution
directly to the system.6 The system still provided the information for the
contractor to accumulate and distribute Superfund costs by specific case, but
eliminated the work of the data clerk.

      Since CMS was designed to be a direct input system, the OIG audited
the system controls and security in a separate review. The audit report
explained that the OIG reviewed CMS security settings and the ENRD’s
procedures for maintaining the accuracy and timeliness of CMS data to
determine whether the ENRD’s practice was consistent with policy.7 The
review also included a comparison of the ENRD’s internal controls over CMS
with the Control Activities Specific for Information Systems section of GAO’s
Standards for Internal Control in the Federal Government. According to the
resultant report, the ENRD:

      •      Assigned CMS user access levels properly and in accordance with
             established procedures.
      •      Properly performed and monitored the CMS Data Quality
             Assurance.
      •      Maintained adequate internal controls over the CMS
             environment.

      Based on the results of our system audit, we accepted the CMS data
from March 1998 through September 1999. We did not review individual
timesheets prepared for the months of October 1997 through February 1998
since the ENRD replaced the manual system. Therefore, our review focused
on verifying the contractor’s accumulation and distribution of the labor costs
to Superfund and non-Superfund cases based on the agreed upon
methodology.

      For purposes of our review, we:


6
     Administrative and management personnel do not complete time data. Their salaries
become part of the indirect cost pool.
7
       OIG Audit Report entitled Environmental and Natural Resources Division Network
Computer Security and Case Management System Internal Control Audit, August 2001.
According to the report, CMS is an application on the ENRD’s Justice Consolidated Office
Network 2 (JCON2), which is the primary automation information system of ENRD allowing
users access to office automation applications through independent personal computer
workstations. Although we reported certain security weaknesses in JCON2, we did not
report application weaknesses for the CMS.



                                          -6-
   •   Matched the total Superfund and non-Superfund labor costs to that
       reported on the E&A reports for FY 1998 and FY 1999.
   •   Acquired and reviewed electronic CMS files and selected salary files
       that the ENRD provided to the contractor and the resultant electronic
       files prepared by the contractor to summarize costs by employee and
       case.
   •   Extracted and reconciled Superfund case costs from the contractor
       files by using the validated case numbers discussed earlier in this
       report.

       Since the E&A and Accounting Schedules and Summaries amounts
matched, this assured us that the distribution method, which parallels a
management information system and not an accounting system, was limited
to allocating just the total of costs paid for each fiscal year. We traced the
Direct Labor for Superfund cases ($6,985,929 in FY 1998, and $7,161,567 in
FY 1999) from the E&A Reports through the schedules of the Accounting
Schedules and Summaries. We found that the contractor’s distribution was
limited to the total costs in the E&A reports.

      In the next phase of the audit, we performed selected database
matches to compare the employee time and case data against the
contractor’s schedules used to prepare the Accounting Schedules and
Summaries, and to identify Superfund case data. As previously mentioned,
we verified the case database, so we were able to match the ENRD case list
to the contractor’s completed schedules. We then compared the raw time
data, which included 335,672 transactions in FY 1998 and 327,987
transactions in FY 1999, against the summary time schedules prepared by
the contractor. We compiled the individual transactions into monthly totals
by employee to match against the contractor’s summaries, which included
5,951 monthly employee summary records in FY 1998 and 5,939 records in
FY 1999. We found no reportable differences in the total employee monthly
hours that the contractor used as the base for calculating the effective
monthly hourly labor rates. Further, we summarized Superfund direct labor
by case and fiscal year by performing a database match of the labor costs
against the Superfund case list and also found no discrepancies.

       The contractor developed the hourly labor rates within a specific
month by applying salary data provided by the ENRD against the total hours
reported monthly by employee. We selected randomly one month in each
fiscal year (December 1997 and January 1999) to review the effective
monthly salaries by employee developed by the contractor. We found no
reportable differences. The contractor converted the biweekly salaries in
each month into hourly rates, applied them to reported hours by employee
and case, and extracted amounts by Superfund and non-Superfund cases.


                                     -7-
      Overall, we were able to verify the accumulation of reported hours, the
development and application of hourly rates, and the extraction of the labor
costs to Superfund cases. Therefore, in our judgment this process provided
for an equitable distribution of direct labor costs to the ENRD cases.

Indirect Costs

       In addition to direct costs incurred against specific cases, the ENRD
also incurs indirect costs that it allocates to all cases. These include salaries,
benefits, travel, freight, rent, printing, services, supplies, and equipment.
The contractor distributes indirect costs to individual cases using an indirect
cost rate that is calculated on a fiscal year basis.

       According to its indirect cost methodology, the contractor uses actual
payments by the ENRD as the basis for the indirect cost base and expense
pool for calculation of the indirect cost rate. The base is comprised of total
direct labor. The contractor extracts indirect costs from the E&A report and
removes all direct costs incurred to arrive at net indirect costs. The
contractor divides this amount by total direct labor for the period to calculate
the ENRD indirect cost percentage. Additionally, the contractor identifies
indirect costs that support only Superfund activities and uses these costs to
develop a separate Superfund specific indirect rate, which is calculated by
dividing these costs by Superfund direct labor. The rates for FY 1998 and
FY 1999 follow.

                  Indirect Cost Rates By Fiscal Year
                   Category                    1998            1999

        ENRD Indirect                              189%            194%
        Superfund Specific                            39%           35%
        Combined Rate                              228%            229%
       Source: Schedule 4 of Accounting Schedules and Summaries.
               Percentages rounded to nearest whole percent.

      We reconciled the total E&A amounts to the Accounting Schedules and
Summaries, Schedule 4 to ensure that the contractor used only paid costs to
accumulate the expense pool. Costs used by the contractor were extracted
properly from the E&As. The contractor then calculated the rates accurately
by dividing the indirect expenses by applicable direct labor costs.




                                      -8-
Other Direct Costs

       The amounts of other direct costs incurred by the ENRD and
distributed to Superfund during FY 1998 and FY 1999 are provided in the
following table.

             Superfund Other Direct Costs By Fiscal Year8
                Subobject Code                       1998                       1999
1153-Special Masters Compensation                 $ 178,112                   $ 160,788
1157-Expert Witness Fees                            3,854,692                  3,908,314
1162-Interest Penalties-Personal Services                  79
2100-Travel and Transportation                        783,507                     814,405
2411-Printing and Reproduction,                        73,848                      85,575
      Court Instruments
2499-Printing and Reproduction, All Other                                            9,316
2501-Filing and Recording Fees                             10
2508-Reporting and Transcripts- Deposition            189,236                     194,809
2509-Reporting and Transcripts- Grand Jury                 80                        (80)
2510-Reporting and Transcripts- Court                   7,605                      16,577
2529-Litigation Support                             4,744,003                   2,587,924
2557-Litigation Graphics                                3,999                      46,938
2563-Interest Penalties-Government                        802                         399
2591-Audiovisual Services                                  50
      via Working Capital Fund
2598-Miscellaneous Litigation Expenses                  3,991                        7,343
2599-Other Services                                                                    380
3129-Non-Capitalized Automated Litigation             139,888                        2,102
      Support Equipment
Totals                                                      $9,979,902        $7,834,790
Source:       Extracted from the ENRD electronic files of FY 1998 and FY 1999
              other direct costs.

      We designed our review of other direct costs to determine if the
selected transactions included adequate supporting documents and were
recorded to the correct subobject and case classifications. To accomplish
this we reviewed selected transactions from case transactions in FY 1998
and FY 1999. We combined the two years into a universe of 24,740
transactions.



8
        The amounts included distributed unliquidated obligations of approximately $4.9
million in FY 1998 and $2.2 million in FY 1999. We included these in our tests.


                                           -9-
      We selected four subobject codes to review: 1157, 2100, 2529, and
25999. These four comprised 73 percent of the total number of the
transaction universe and 85 percent of the dollar universe. We stratified and
reviewed 100 percent of the high dollar transactions from each of the four
subobject codes, and we reviewed other transactions based on a statistical
sample.

      The following table shows the total number of transactions and
associated dollar value in the four subobject codes, as well as the sample
number of transactions we selected from each of these four subobject codes
for review.

            Transaction by Subobject Code and Dollar Amount
                                          High Dollar
                                         Judgmentally         Randomly
                                       Selected Sample    Selected Sample
              Total        Dollar      Transactions for   Transactions for
Subobject Number of Amount of All           Review             Review
Code      Transactions Transactions Size Dollar Value Size Dollar Value
1157            1,145    $ 8,410,351    23   $1,711,927    47     $341,775
2100           12,285      6,448,993    18      113,737 156         86,402
2529            3,133     30,441,022    28    5,336,028    98      837,765
2599            1,462     10,425,260    19    1,280,265    63      324,257
Totals         18,025    $55,725,626    88   $8,441,957 364     $1,590,199

In the four subobject codes, we found that:

           •   Supporting documents (travel vouchers and authorizations,
               contracts, agreements, purchase orders, and similar
               documents) existed for each randomly sampled transaction;
           •   The sampled transactions were recorded to the correct
               subobject codes; and
           •   Case classifications were accurate.

Based on our stratified random sampling methodology, we are 95 percent
confident that few, if any, of the total transactions in these four subobject
codes have exceptions. Our statistical sampling results apply to the
transactions in the four above mentioned subobject codes only, and cannot
be projected to the transactions in all subobject codes.


9
       We selected subobject code 2599 for audit based on the total charges for all cases,
not the distributive share to Superfund, which was immaterial.



                                          - 10 -
Overall Summary

       Based on our review, the cost distribution methodology used by the
ENRD to allocate incurred costs to Superfund cases provided an equitable
distribution of total labor, other direct costs, and indirect costs to Superfund
cases during FY 1998 and FY 1999. In our judgment, the ENRD should
formalize the process the litigating sections use to identify Superfund cases.
This would benefit the ENRD by providing the documentary evidence needed
to support its identification of Superfund cases in applicable databases.

Views of Officials

      During the exit conference the ENRD representative agreed that it
would benefit the ENRD to formalize the Superfund case identification
process. The ENRD does not maintain its own operating procedures, so he
offered that this will most likely be addressed through the issuance of a
formal advisory to section heads.

Recommendation

      We recommend that the Assistant Attorney General, ENRD:

1.   Formalize the process each litigating section in ENRD uses to identify
     which cases are treated as Superfund cases.




                                     - 11 -
                                                             APPENDIX I

                    OBJECTIVES AND SCOPE
      The purpose of the audit was to determine if the cost allocation
process used by ENRD and its contractor provided an equitable distribution
of total labor, other direct costs, and indirect costs to Superfund cases
during FY 1998 and FY 1999. To accomplish the overall objective of the
audit, we assessed whether: (1) the ENRD identified Superfund cases based
on appropriate criteria, (2) costs distributed to cases were limited to costs
incurred in E&A Reports, and (3) adequate internal controls existed over the
recording of direct labor time to cases and the recording of other direct
charges to accounting records and Superfund cases. As an essential
element of our review, we assessed the Superfund cost accumulation system
designed and operated by the ENRD contractor.

       The audit focused on, but was not limited to, financial activities and
the procedures used by the ENRD to document, compile, and allocate direct
and indirect costs charged to Superfund cases from October 1, 1997 through
September 30, 1999. For our assessment of internal controls over the
compilation of direct labor charges, we relied on the results in OIG Audit
Report 01-19, August 2001, Environmental and Natural Resources Division
Network Computer Security and Case Management System Internal Control
Audit.

      We conducted our audit in accordance with Government Auditing
Standards issued by the Comptroller General of the United States. We
included such tests of the accounting and management records as were
deemed necessary to achieve our audit objectives.




                                   - 12 -
                                                         APPENDIX II

                   Cases in Sample Review
             FY 1998                               FY 1999
Case No.         Section              Case No.         Section
62-13-37         Criminal             62-13-36         Criminal
62-37-44         Criminal             62-36-64         Criminal
62-11E-22        Criminal             62-11E-20        Criminal
62-57-66         Criminal             62-57-64         Criminal
62-74-368        Criminal             62-74-366        Criminal
198-44-2         Criminal             90-1-23-2650     General Litigation
198-79-8         Criminal             198-50-1         Criminal
198-58-6         Criminal             198-34-1         Criminal
90-1-23-3055     General Litigation   198-15-1         Criminal
198-51-9         Criminal             198-42-6         Criminal
198-74-18        Criminal             198-57-24        Criminal
198-87-14        Criminal             198-21-6         Criminal
198-24-5         Criminal             198-62-16        Criminal
90-11-1-10       Enforcement          198-82-21        Criminal
198-65-3         Criminal             198-70-22        Criminal
198-16-00227     Criminal             198-77-12        Criminal
198--37-00260    Criminal             33-33-1071       Land Acquisitions
33-33-1081       Land Acquisitions    33-33-1093       Land Acquisitions
33-33-1103       Land Acquisitions    33-33-1125       Land Acquisitions
90-11-2-06024/2 Enforcement           90-11-06001/1    Enforcement




                                 - 13 -
                                APPENDIX III

FY 1998 Accounting Schedules & Summaries




                  - 14 -
- 15 -
- 16 -
- 17 -
- 18 -
- 19 -
- 20 -
- 21 -
                                APPENDIX IV

FY 1999 Accounting Schedules & Summaries




                  - 22 -
- 23 -
- 24 -
- 25 -
- 26 -
- 27 -
- 28 -
- 29 -
                         APPENDIX V

ENRD COMMENTS ON THE AUDIT
     RECOMMENDATIONS




           - 30 -
                                                       APPENDIX VI

ANALYSIS AND SUMMARY OF ACTIONS NECESSARY
              TO CLOSE REPORT

 1. Resolved. This recommendation may be closed after we receive and
    review the case identification advisory memorandum to be issued by
    the Assistant Attorney General.




                                - 31 -
